<html>
<title> - EGYPT TWO YEARS AFTER MORSI (PART II)</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                 EGYPT TWO YEARS AFTER MORSI (PART II)

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 16, 2015

                               __________

                           Serial No. 114-132

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-998PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
DARRELL E. ISSA, California          BRIAN HIGGINS, New York
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York



















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. David Schenker, Aufzien fellow and director, Program on Arab 
  Politics, Washington Institute for Near East Policy............     7
Mr. Eric Bjornlund, president, Democracy International...........    19
Steven A. Cook, Ph.D., Eni Enrico Mattei senior fellow for Middle 
  East and Africa studies, Council on Foreign Relations..........    27

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. David Schenker: Prepared statement...........................    10
Mr. Eric Bjornlund: Prepared statement...........................    21
Steven A. Cook, Ph.D.: Prepared statement........................    29

                                APPENDIX

Hearing notice...................................................    42
Hearing minutes..................................................    43
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    44

 
                 EGYPT TWO YEARS AFTER MORSI (PART II)

                              ----------                              


                      WEDNESDAY, DECEMBER 16, 2015

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 1:15 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order.
    First, on behalf of all of the members of our subcommittee, 
we would like to express our deepest condolences to our dear 
friend and the ranking member of this subcommittee, Ted Deutch. 
Ted's mom, Jean, passed away last week, and I know that the 
hearts of every member of this committee go out to Ted and his 
family during this difficult time.
    In Ted's absence, Mr. Connolly will serve as our ranking 
member today.
    After recognizing myself and Ranking Member Connolly for 5 
minutes each for our opening statements, I will then recognize 
any other member seeking recognition for 1 minute.
    We will then hear from our esteemed panel of witnesses.
    And, without objection, the witnesses' prepared statements 
will be made a part of the record, and members may have 5 days 
to insert statements and questions for the record subject to 
the length and limitation in the rules.
    The chair now recognizes herself for 5 minutes. This is the 
second part of a hearing that we began in May, looking at 
Egypt's transition since Morsi was removed from power. In the 
hearing earlier this year, we heard some differences of opinion 
about the best way to move forward with our policy on Egypt, 
including exactly how much leverage the United States has or 
should attempt to wield over Egypt's domestic affairs. Egypt is 
an important ally and security partner for the United States. 
Egypt's strategic location, its assurance of safe passage 
through the Suez Canal, its peace treaty with Israel, and its 
demographics and cultural influence all mean that Egypt will 
continue to play a positive, crucial role in the Middle East in 
the years ahead.
    Egypt is in a struggle with terrorism and Islamic jihadist 
groups, like ISIS and Al Qaeda, a struggle that will not be 
over, sadly, any time soon. It is essential that we maintain 
alliances like the one we have with Egypt, not only as a 
partner in providing logistical support in the region but also 
as a participant in our shared fight against a twisted radical 
Islamic ideology.
    Egypt's strong relationship with Israel, particularly with 
regard to their antiterrorism cooperation in the Sinai, is also 
of strategic benefit to us in the United States, especially in 
a region that so often appears bent on Israel's destruction. 
Yes, we have significant human rights concerns with Egypt, 
including inexcusable restrictions on freedom of the press, 
assembly, association, and expression; yes, reports of 
deplorable prison conditions, torture, and inhumane treatment, 
and discrimination of women and minorities should not and must 
not be swept under the rug. These issues must be addressed, and 
I continue to call on Egypt to improve its human rights 
practices and to allow more political space for Egyptian civil 
society.
    The Egyptians are increasingly looking elsewhere for 
friends and allies outside of the United States, and it doesn't 
help when the Obama administration--excuse me, Mr. Connolly--
keeps sending mixed messages.
    We can work with Egypt to improve our security 
relationship, to push for human rights changes that we want to 
see, and to help it toward a long-term stability, economic 
growth, and progress on the democracy front that President Sisi 
himself has advocated because make no mistake: Long-term 
stability will only come with the kind of prosperity, respect 
for human rights, and self-determination that allows all 
Egyptians to feel that they have a say in the future of their 
beloved country.
    Egypt just finished the last runoff in its long-delayed 
parliamentary elections, and while initial observations and 
reports do not indicate significant progress, I am hopeful that 
the new legislature will be able to make greater strides in the 
months ahead. As we all know, democracy is more than just 
elections, and both the Sisi government and the new legislature 
should use this time to set the stage for a full democratic 
transition in the future. One sign of goodwill that President 
Sisi could make immediately is pardoning the 43 pro-democracy 
NGO workers who were wrongly convicted in 2013 under Morsi. 
Correcting Morsi's mistakes this way would go a long way in 
demonstrating President Sisi's commitment to a democratic 
future and in repairing the damage that both the Morsi and the 
Obama administration did to the U.S.-Egypt relationship.
    Despite the Obama administration's missteps, the Egyptian 
people should know that they do have a friend in the United 
States, a friend who is ready to be a better partner, a 
stronger ally, and one who is ready to assist when asked in 
order to achieve the stable, prosperous, open, and inclusive 
nation that Egyptians all deserve.
    Lastly, I would like to once again thank my good friend 
from Virginia, our ranking member acting today in this 
capacity. I know that Mr. Connolly has followed these issues 
for years, ever since he was a Senate staffer on the Foreign 
Relations Committee. In June 2014, Mr. Connolly and I, as a 
matter of fact, asked GAO for a study, a report on U.S. foreign 
assistance to Egypt. And in a couple of days, we will receive 
the third installment of our report. And I know that we are 
looking forward to that.
    And, with that, I am pleased to yield to today's ranking 
member, my good friend from Virginia, Mr. Connolly.
    Mr. Connolly. I thank the chair, and, gosh, I didn't know 
she was aware of my past work with the U.S. Senate Committee on 
the Foreign Relations.
    The title of this hearing is ``Egypt Two Years After Morsi 
(Part II).'' It might be more appropriate to acknowledge that 
Egypt has moved beyond the post-Morsi period and transitioned 
clearly into a new and distinctly different era, clearly under 
the leadership of President Abdel Fattah el-Sisi. While we can 
still view many domestic developments in Egypt within the 
context of President Morsi's removal from power and the 
upheaval experienced during and subsequent to the 2013 military 
coup, Egypt's new leader, President el-Sisi, increasingly owns 
this moment in Egyptian history.
    The U.S. has long paid a price for stability through a 
strategically important relation with Egypt, and it is the 
people of Egypt who have had to bear the price with respect to 
eroded rule of law, the loss of any political space, and the 
limits on freedom of expression. However, it is in this 
uniquely el-Sisi moment in Egyptian history that we have seen 
the simultaneous dissolution of security and democratic 
freedoms. As we move beyond the re-litigation of the 2013 coup, 
and as Egypt turns the page on the post-Morsi era, the U.S. 
owes this important relationship an honest appraisal of Egypt 
under this new government.
    First, the U.S.-Egypt relationship is critical to regional 
stability and U.S. security interests. As the second largest 
recipient of U.S. military assistance and a major non-NATO 
ally, Egypt has long undergirded our security strategy in the 
Middle East, chief among which is, of course, preservation and 
maintenance of the Camp David Accords. The U.S. brokered the 
1979 peace treaty between Egypt and Israel, ended a historical 
pattern of violence between the two nations and brought 
collaboration in a relationship previously defined by absolute 
conflict. The fact that the treaty was affirmed under both 
Morsi and now el-Sisi is the kind of continuity and commitment 
to peace this region desperately needs.
    However, the Arab world's most populace nation faces a 
growing security threat from within, including terrorists 
blowing out of Libya into the Sinai, and the Egyptian 
Government has been beset with the challenge of trying to quell 
these insurgencies, where more than 700 security and defense 
personnel--Egyptian personnel--have, in fact, been killed.
    The breakup of the Russian jet over the Sinai that claimed 
224 lives was one of the more high-profile demonstrations of 
security failures in Egypt to date. The U.S. provides defense 
articles to assist with counterterrorism initiatives, but 
cooperation has suffered from poor relationships with Egyptian 
security institutions whose interests are sometimes misaligned 
with those of the United States. The effort to align and 
strengthen those relationships has been tempered by what many 
have characterized as a faltering democratic tradition--
transition in Egypt punctuated with significant human rights 
violations. Congress has raised concerns about the trajectory 
of Egyptian democracy and put limiting conditions on U.S. 
assistance in the consolidated appropriations bills of Fiscal 
Year 2014 and Fiscal Year 2015.
    I have been glad, as the chairman noted, to collaborate 
with Chairman Ileana Ros-Lehtinen, in working with the GAO to 
evaluate ongoing security assistance programs in Egypt. Despite 
the administration's March 31 announcement that it would 
release frozen military assistance to Egypt, concerns remain. 
The Secretary of State has yet to certify that Egypt is 
supporting democratic transition, and we have witnessed 
troubling developments in the judicial system and brutal 
crackdowns conducted by security forces. The stream of mass 
death sentences--death sentences--handed down by Egyptian 
judges and the killings at al-Nahda and Rabaa al-Adawiya 
squares erode confidence in the rule of law. The announcement 
that former President Morsi himself has been sentenced to death 
was labeled unjust by our own State Department, and there is no 
doubt that carrying out the sentence would perpetuate the cycle 
of violence and zero-sum politics in Egypt.
    It is estimated that there are now more than 40,000 
political prisoners, along with 22 journalists behind bars in 
Egypt. I have met with individuals personally affected by this 
crackdown, including a young man, Mohammed Sultan, a young 
activist detained for more than 400 days after participating in 
citizen protests. I joined human rights groups in the U.S. 
State Department in advocating for his release and was pleased 
to see him finally return home to his family and have the 
opportunity to meet with Secretary Kerry to discuss his ordeal. 
What is important: Mohammed Sultan is an American and a victim 
of the Egyptian justice in the el-Sisi era.
    The recently concluded House of Representatives elections 
did little to consolidate democratic gains, as the chair 
alluded. As the State Department noted on December 4 regarding 
those elections, the U.S. remains ``concerned about low voter 
turnout and limited participation by opposition parties''--it 
is a bit of an understatement--``Furthermore, the United States 
continues to have concerns about limits on freedom of peaceful 
assembly, association, and expression, and their impact on the 
political climate in Egypt and calls upon the Government of 
Egypt to ensure these fundamental freedoms.''
    As we discuss U.S.-Egypt relations, we must ask ourselves 
difficult questions about the long-term goals of the 
relationship in light of backsliding on both the security and 
civil engagement fronts. Those goals should inform our dialogue 
with the el-Sisi government and how we confront the fissures 
that have opened up in this alliance.
    One thing of which we can be sure is that continued human 
rights abuses and power consolidation at the expense peaceful 
opposition in Egypt is neither consistent with U.S. interests 
and principles nor an expedient path to an ultimately secure 
region.
    I look forward to hearing the testimony. Thank you, Madam 
Chair.
    Ms. Ros-Lehtinen. Thank you so much for an excellent 
statement, Mr. Connolly.
    Mr. Rohrabacher of California.
    Mr. Rohrabacher. Thank you very much, Madam Chairman, and 
thank you for your leadership in this very important time in 
our history in dealing with Middle East issues. President el-
Sisi and his team have saved not just the people of Egypt but 
the entire Middle East from an unstoppable onslaught of radical 
Islamic terrorism. That is the bottom line. If he would not 
have acted, if he was not there today, if he fails, radical 
Islamic terrorism--that is fundamentally anti-Western in 
nature--will succeed throughout the Middle East. Leading up to 
al-Sisi's courageous actions, President Morsi made it clear 
that he was discarding the pledges of moderation and democratic 
reform. Morsi was and is part of the Muslim Brotherhood, which 
for decades has struggled to obtain power in order to achieve 
radical Islamic objectives. Let's note that one of President 
Morsi's promises was to free The Blind Sheikh, who is now being 
held in the United States, for his leadership and guidance in 
the attack on the World Trade Center, which he was trying to 
kill thousands of Americans. Yet Mr. Morsi was promising to 
free him from American captivity.
    President Morsi's radical agenda became evident, and the 
people of Egypt rose up against what they saw was turning Egypt 
into an anti-Western caliphate. El-Sisi stepped in at that time 
when there were massive demonstrations against Morsi and 
prevented bloodshed at that point. And, of course, he won't get 
credit for that.
    And we know that during times of crisis like this, whether 
it is in our country or other countries, there are things that 
are totally not consistent with a democratic society at times 
when things are stable. That is why it is important to lead 
Egypt toward stability and more democratic process. Morsi set 
out to do just that.
    One last note, if Egypt, again, falls to radicalism, anti-
Western radicalism, soon all the governments in that part of 
the world will be overwhelmed. There is no question about that. 
Our own Government has not been supportive, using the 
imperfections, which are many--and we have imperfections here, 
I might add, many of them--using those imperfections as an 
excuse to perhaps put us in jeopardy for a major expansion of 
radical Islamic terrorism in that part of the world. Thank you 
very much for your hearing today.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Rohrabacher.
    Mr. Meadows of North Carolina.
    Mr. Meadows. Thank you, Madam Chair.
    Thank you for your leadership and might I say your 
consistent voice on this issue. There has never been a day that 
we can't look to your leadership on this particular issue, and 
I thank you for that. As the witnesses testify today, I think 
probably the biggest issue that many of us will be looking 
toward hearing is, how do we take a system that is perhaps not 
perfect but also address those issues in a spirit of respect 
and truly out of appreciation for where Egypt is today?
    It would be a mistake to focus so much on the imperfections 
without acknowledging some of the areas that have been 
addressed, and specifically Ambassador Tawfik, who is now back 
in Egypt, was the Ambassador from Egypt to Washington, DC, to 
the United States, during both government operations, was a 
personal friend. And one of the things that continued to be 
mentioned over and over again was how the Egyptian people felt 
like the United States had abandoned them in that friendship.
    So if there is one message, Madam Chairman, that I want to 
communicate to the Egyptian people today, it is that there are 
a number of us, not just on Capitol Hill but across the United 
States, who look forward to an ongoing personal relationship 
with those in Egypt and that they can count on not only our 
strategic partnership but our friendship as we work through 
some of the difficulties that may face us.
    I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Meadows.
    Mr. Trott of Michigan.
    Mr. Trott. Thank you, Chairwoman Ros-Lehtinen and Ranking 
Member Connolly. Although it has been a tumultuous few years, 
Egypt has always been an important and integral part of the 
United States-Middle East policy, even more so as our allies in 
the region face a range of threats from various state and non-
state actors.
    While most of the testimony today is going to rightfully be 
focused on security and stability in the elections, I would 
like to bring awareness to the situation of the
    Copts, the region's largest Christian community. This past 
October, we commemorated the 4-year anniversary of Maspero, 
where peaceful protestors, mostly Copts, were attacked by state 
security forces. January 1 commemorates the 5-year anniversary 
of the bombing of the All Saints Church in Alexandria, where 
Copts were attacked and killed reportedly by non-state actors. 
This follows a disturbing trend of persecution against a 
peaceful group of people who have been in Egypt since Saint 
Mark brought Christianitythere over 2,000 years ago. The Copts 
under Morsi and the Muslim Brotherhood were at the height of 
their modern-day persecution, with unprecedented attacks and 
rhetoric aimed at their Pope and religious institutions.
    I was happy to see President Sisi visit a Coptic church to 
celebrate Christmas last year, and I hope that this is a sign 
that his administration will be as inclusive as possible with 
the Copts. This is an important issue I plan to stay focused on 
as Egypt looks to regain its footing, both domestically and 
internationally. I look forward to hearing from our esteemed 
panel particularly how the Copts are faring under President 
Sisi and what steps the Egyptian Government is taking to ensure 
that the Copts are part of Egypt's future.
    I yield back my time.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Trott.
    Mr. Clawson of Florida.
    Mr. Clawson. Thank you to the chairwoman for having this 
hearing. You are always consistent, and we appreciate that, as 
Representative Meadows said.
    I appreciate you all coming. I am very interested to see 
what you think about how Egypt is going to handle ISIS and at 
the same time treat their citizens, particularly Christians, 
fairly. What are they going to do with Russia? And how are they 
going to treat Israel? And how do you get all that right at the 
same time? I think they have got a big balancing act here, and 
I am very curious what you have all got to say about it because 
we need to stop ISIS. We need to protect all folks, 
particularly Christians in this case, and we have got to 
protect Israel. So I am looking forward to hearing what you all 
have to say.
    Ms. Ros-Lehtinen. Thank you very much to all of our members 
for their opening statements.
    I now would like to introduce our distinguished panel of 
witnesses. First, we are pleased to welcome Mr. David Schenker, 
who is the director of Arab Politics at the Washington 
Institute for Near East policy. Previously, Mr. Schenker has 
served as the Department of Defense top policy aide on Arab 
countries, and he is the author of several books on Middle 
Eastern countries, as well as a regular contributor to several 
major daily newspapers.
    Welcome, sir.
    Next, we would like to welcome Mr. Eric Bjornlund, who is 
the president and cofounder of Democracy International. Eric 
has served for the National Democratic Institute as a senior 
associate and Asia director and as director of program 
coordination and general counsel. He was also a Woodrow Wilson 
fellow at the Wilson International Center for Scholars.
    Welcome.
    And, last but certainly not least, we would like to welcome 
back Dr. Steven Cook, who is the senior fellow for Middle East 
and Africa at the Council on Foreign Relations. Prior to this, 
Dr. Cook was a research fellow at the Brookings Institution and 
Washington Institute for Near East Policy.
    Thank you, gentlemen, for being with us. Your statements 
will be made a part of the record. Please feel free to 
summarize. We will start with Mr. Schenker.

 STATEMENT OF MR. DAVID SCHENKER, AUFZIEN FELLOW AND DIRECTOR, 
 PROGRAM ON ARAB POLITICS, WASHINGTON INSTITUTE FOR NEAR EAST 
                             POLICY

    Mr. Schenker. Thank you, Madam Chair, Ranking Member 
Connolly, distinguished members of the subcommittee. It is an 
honor to be here today to discuss security in Egypt 2 years 
after Morsi.
    While the increasingly repressive trajectory of Sisi's 
Egypt should be a concern for Washington, the ongoing 
deterioration of security in Egypt is the more immediate 
threat. The recent downing of the Russian airliner over the 
Sinai by the Islamic State has drawn international attention to 
the problem. The reality, however, is that terrorism in Egypt 
is not confined to the Sinai. Terrorism in Egypt has traversed 
the Suez Canal and is taking root in the Nile valley.
    Historically security in Egypt, and particularly in the 
Sinai, has never been particularly good, but it has 
deteriorated after the fall of Mubarak, and the violence spiked 
after the removal of Morsi, morphing into a full-scale Islamist 
insurgency now led by Wilayat Sinai, an Islamic State 
affiliate.
    Since Morsi's removal, in addition to the bombed Russian 
airliner, we have seen tourists targeted the Sinai, checkpoints 
and police stations attacked, RPGs fired at ships in the Suez 
Canal. MANPADs have brought down ships and helicopters over the 
Sinai, and a Russian Kornet anti-tank weapon sunk an Egyptian 
warship in the Mediterranean off the Sinai coast. Over the past 
few years, more than 1,000 Egyptian soldiers and policemen are 
estimated to have been killed in the Sinai.
    Meanwhile, west of the Suez Canal, Egypt resembles the 
country in the 1990s when the State battled an insurgency led 
by Gamaa al-Islamiyah. In 2014, there were more than 300 
attacks perpetrated in Egypt outside of the Sinai, and that 
number is likely to double in 2015. In this past summer alone, 
you had the chief prosecutor of Egypt, Hisham Barakat, 
assassinated in Cairo. You had a state security building bombed 
in Cairo and a suicide bomber attempted to target tourists in 
Luxor, all within 2 months.
    No doubt Egypt is situated in a difficult neighborhood, but 
many of problems are self-inflicted. Egypt, for example, has 
not prioritized border security with Libya, the primary source 
of weapons flowing to the Sinai. Egypt's domestic 
counterterrorism capabilities are likewise lacking. If the 
accidental killing of eight Mexican tourists in the Western 
Desert in September 2015 is any indication, intelligence 
gathering on communications between the military and other 
domestic security agencies is also a real problem. Clearly, 
intelligence gathering remains a serious deficit in the Sinai 
as well, even though cooperation with the Israelis is 
reportedly helping fill some gaps.
    Security challenges facing Egypt are enormous, and at 
present, Cairo does not appear to be up to the task. Given the 
regional deterioration, the continued stability and security of 
Egypt should be a priority for the U.S. There is much that we 
can do to help--working with Cairo--to mitigate the threats. 
These might include counterterrorism training. Egypt's heavy-
handed and purely military approach has not succeeded, and it 
is not likely to succeed. It is not a problem of manpower. It 
is a problem of tactics. Egypt is resistant to change, but 
Washington has to continue to push Egypt to adopt modern COIN, 
counterinsurgency, techniques.
    Second, developing the Sinai. Egypt's Sinai 
counterinsurgency approach is one-dimensional, but successful 
COIN campaigns have both civilian and military aspects. Absent 
educational and economic opportunities, the Sinai will continue 
to prove fertile ground for jihadist recruitment. We really 
have to invest in the Sinai and get our allies to do so.
    We should leverage the Gulf. We have not been particularly 
good or successful in conditioning assistance to Egypt. I don't 
think we should pursue that route. We should be working with 
our Gulf allies, who give a lot more money, frankly, to Egypt 
than we do. There would be a lot more leverage, I think, there. 
And they would help perhaps to get Egypt to move toward 
economic development and adopt modern COIN techniques in the 
Sinai.
    We also need to increase visibility in the Sinai. Sinai 
currently is closed. We don't have a very good idea of what is 
going on, especially important given the extensive reports of 
collateral damage and human rights abuses there.
    We should also help Egypt to secure its border with Libya. 
We pressed them to reprogram some of the $1.3 billion in their 
foreign assistance dollars to put different systems on the 
border. They have refused. They should devote financial 
resources to aerostat balloons, C4ISR, and even Black Hawk 
helicopters.
    We have to help Egypt improve its airport security. This is 
a problem that Western financial and technical support can 
solve or at least help mitigate. We should prevent further 
unproductive delays in transfer of equipment. When we stop the 
flow, for example, of Apache helicopters, that is a primary 
tool in the counterinsurgency. There are other things we can 
keep from Egypt if we want to express our disappointment or 
anger with them. They viewed this, the withholding of the 
Apaches, as confirming the conspiracy that we wanted the return 
of the Muslim Brotherhood to government in Egypt.
    Finally, we should avoid trying to leverage U.S. military 
assistance. It is not a productive policy. Even though the 
human rights are problematic and perhaps counterproductive to 
long-term stability of Egypt, the cutoff in U.S. assistance 
will neither improve Cairo's conduct nor enhance our already 
fraught bilateral relationship.
    With that, thank you very much.
    [The prepared statement of Mr. Schenker follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much. Excellent 
suggestion.
    Mr. Bjornlund.

     STATEMENT OF MR. ERIC BJORNLUND, PRESIDENT, DEMOCRACY 
                         INTERNATIONAL

    Mr. Bjornlund. Thank you, Madam Chairman, Ranking Member 
Connolly, other distinguished members of the subcommittee. It 
is an honor to appear today to address these important issues.
    The recent House of Representatives elections in Egypt, 
which took place in stages from October to early December, 
marked the conclusion of the so-called roadmap to democracy 
declared after the ouster of President Morsi in July 2013. 
While these recent elections, along with the constitutional 
referendum and Presidential election last year, have completed 
a process of civilianizing the highest levels of government, 
they have not resulted in a more free or democratic Egypt.
    Since 2013, Democracy International has monitored the 
electoral component of the roadmap through multiple 
international observation missions and a regular presence in 
country. As president of DI, I have had the opportunity to 
visit Egypt many times since the spring of 2013 and to lead our 
observation missions there.
    Democracy International deployed the largest international 
mission to observe the constitutional referendum in January 
2014. In May 2014, we carried out one of the largest 
comprehensive missions to observe the Presidential election 
process. But after the parliamentary elections were rescheduled 
for October to December of this year, we were unable to obtain 
visas for core staff members and observers until after voting 
had commenced in October. This initially limited our access to 
the process during the pre-election period and precluded the 
deployment of a full observation mission for the first stage. 
We, nonetheless, observed voting in 158 locations in 5 
governorates. For the second stage in November and early 
December, our observers witnessed the balloting in 422 
locations in 8 governorates, and we conducted more than 160 
meetings with a broad range of stakeholders.
    The elections took place amidst a backdrop of arrests, an 
ongoing crackdown on civil society and the media, and forced 
disappearances. Once-strong movements and political parties 
have been silenced. Opponents of the government have been 
arrested. Courts have ordered dissolution of their 
organizations. And an orchestrated campaign equating dissent 
with terrorism is echoed by much of the Egyptian media. This 
climate has not been conducive to meaningful democratic 
elections.
    Public interest in the most recent elections was muted. 
Turnout was relatively low, especially among younger Egyptians. 
During 8 days of voting across the country, our observers 
rarely saw voters under the age of 35. Critics of the 
government, including groups who might identify themselves as 
liberals, as well as those that opposed the removal of former 
President Morsi, were largely prevented from participating or 
chose to boycott. Islamist parties, which constituted a 
majority of the Parliament elected in January 2012, were almost 
entirely absent or excluded.
    The electoral system did not promote inclusion. Most of the 
members were elected as individuals and are nominally 
independent; 120 of the 596 members were elected on a winner-
take-all basis from lists running in four large districts. 
Unlike traditional list systems in other countries which 
provide a means for including smaller parties and minority 
points of view, the list portion of the system in Egypt had the 
opposite effect. In fact, For the Love of Egypt, which is 
widely perceived to have the support of the government, won all 
120 of the list seats.
    Despite the presence of international and domestic 
observers, the election process was not fully open to 
independent scrutiny. Domestic election observation was neither 
robust nor widespread. Legitimate accredited international 
observers encountered obstacles, while others were simply not 
able to participate. The Carter Center announced in 2014 that 
it would not monitor the legislative elections after assessing 
that political space has narrowed. NDI, IRI, the Konrad 
Adenauer Foundation, and Freedom House, among others, were not 
able to even consider the possibility of observing or otherwise 
supporting Egyptian efforts because of the unjust and widely 
condemned trials and spurious convictions of 43 NGO workers in 
2013.
    To the credit of the High Electoral Commission and those 
who provided technical assistance to it, especially the 
International Foundation for Election Systems, the balloting 
process for the elections was conducted in an administratively 
satisfactory manner, and polling officials appeared diligent 
and conscientious. Nevertheless, procedures in polling stations 
and for the counting where we observed varied considerably from 
one to another. This might have been more worrisome if voter 
turnout had been higher or the elections had been more 
vigorously contested.
    We should not misinterpret the orderliness of these 
elections. Larger stories about the parties and candidates who 
were not allowed to participate, the voters who stayed away, 
and the independent observers, domestic and international 
alike, who could not observe, all of which has occurred in a 
climate of political repression and declining freedoms. These 
elections reflect the trend we have observed throughout the 
past 2 years, decreasing space for political competition and 
increasing repression of opposition.
    Genuine democracy is the only path to long-term stability 
in Egypt. Political repression and a disregard for basic rights 
make real democracy impossible and will only increase the 
ongoing polarization of Egyptian society. For Egypt to move 
forward with peace and stability, its leaders need to embrace 
political inclusion and to reorient the country toward broader 
respect for human rights and effective democratic institutions.
    Thank you very much.
    [The prepared statement of Mr. Bjornlund follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you, sir.
    Dr. Cook.

 STATEMENT OF STEVEN A. COOK, PH.D., ENI ENRICO MATTEI SENIOR 
 FELLOW FOR MIDDLE EAST AND AFRICA STUDIES, COUNCIL ON FOREIGN 
                           RELATIONS

    Mr. Cook. Thank you, Madam Chair. And, Mr. Connolly, today 
the ranking member. It is a pleasure to be before you to 
discuss Egypt 2 years after Morsi.
    As you are well aware, the United States has invested $76 
billion in Egypt since 1948. Egypt is important to the United 
States because it is at peace with Israel; it operates the Suez 
Canal, which is critical to both global trade and U.S. security 
policy; and it provides logistical support to American Forces 
operating in and around the Middle East and the Horn of Africa.
    There was tremendous hope after Hosni Mubarak fell in 
February 2011, that Egypt would become democratic, provide an 
opportunity for its people to live prosperous, dignified lives. 
Unfortunately, those hopes have been misplaced. The coup d'etat 
that brought an end to the Muslim Brotherhood's Mohammed 
Morsi's brief tenure at the Presidency has also not resulted in 
stability, prosperity, or democracy in Egypt. The most oft-
cited figures are, since Morsi's ouster, an estimated 41,000 
Egyptians have been jailed; about 3,000 have been killed. Those 
numbers, though, are certainly too low since they don't include 
most of 2015.
    It is also important to point out, however, that 700 
soldiers, officers, and other policemen, have lost their lives 
in a nasty insurgency raging in the Sinai Peninsula. In 
November 2014, in an ominous sign, the homegrown Egyptian 
jihadist group, Ansar Bayt al-Maqdis, pledged its allegiance to 
the self-declared Islamic State and changed its name to the 
Sinai Province of the Islamic State.
    The four most important things that Members of Congress 
need to know about Egypt are the following: First, the Egyptian 
state is weak.
    Second, President Sisi has not consolidated his power. That 
Sisi does not command the state should not be surprising. It 
took Mubarak the better part of a decade to clear away all of 
his opponents. In Egypt today, there is a struggle among 
multiple competing centers of power that include the 
Presidency, the armed forces, the General Intelligence 
Directorate, the Ministry of Interior, and the senior 
judiciary.
    Three, Egypt's hypernationalist political discourse is 
polarizing and radicalizing the political arena.
    Four, Sisi has clearly not learned the lessons of the 
Mubarak period. His overreliance on force and coercion is an 
inefficient means of establishing political control. If you ask 
me today if I believe that Egypt is stable, the intellectually 
honest answer is: I don't know, but President Sisi has offered 
us some clues to that stability based on the way he rules, and 
the way he rules, relying almost entirely on force and 
coercion, does not give me confidence.
    What is the appropriate policy toward Egypt? It depends on 
what the United States wants, an issue with which policymakers 
have been struggling for the last 10 or 15 years. Democracy, it 
makes little sense to talk about supporting democratic 
transition in Egypt today. There is also little reason to 
believe that the United States has the capacity to influence 
the direction of Egyptian politics. The Obama administration 
went so far as to delay military assistance and change the 
terms of that aid for the future. Yet it did not change 
Egyptian behavior.
    On the economy, some believe that this is an opportunity 
for the United States to make a difference on the Egyptian 
economy. We should be cautious here. Those in power in Egypt 
today do not believe in an inclusive, broad, capitalist 
political economic development, but rather they are statists.
    On security, Egypt is confronting a significant threat in 
the Sinai Peninsula from extremist groups. Unlike the 
Government of Iraq, which until the recent Ramadi operation has 
relied on Shiite death squads, Egypt has used its regular army 
in the fight. For a variety of reasons related to the U.S. 
assistance program, the senior command's resistance to altering 
its doctrine, and restrictions on the armed forces that stem 
from the Egypt-Israel Peace Treaty, the military has proven 
itself neither well-prepared nor well-equipped to take on the 
insurgency. They are getting critical assistance from the 
United Arab Emirates and, if reports are to be believed, 
Israel, but only the United States can really provide the 
resources necessary for the Egyptians. If the Egyptian armed 
forces distrust the United States--I am in whole agreement with 
David Schenker, how the suspension of critical defense articles 
have driven a wedge between the United States and the Egyptian 
armed forces.
    What should the United States do? Very quickly, three 
things. First, in our diplomacy with Egypt, we must emphasize 
first-order first principles of tolerance, equal application of 
law, compromise, and nonviolence. Second, we must invest in 
Egypt's political future. It seems now that Egypt's future is 
unstable and authoritarian, but Egypt can change very quickly. 
It is worth our time and effort to invest in that political 
future.
    And then, finally, we must support Egypt's fight against 
extremists. The United States should maintain its assistance 
package at current levels. It should also encourage the 
Egyptians through the promise of additional resources to alter 
its doctrine, its mix of equipment, to meet what the Pentagon 
calls 21st century threats. It seems perverse to offer to pay 
the Egyptians to do something that they already should be 
doing. But if our national interest dictates that we should 
help the Egyptians in this fight, it is the most effective 
means to go forward.
    One last thing. Policymakers should be realistic about 
Egypt. The United States and Egypt have enjoyed strategic 
relations since the mid-1970s. Those relations are changing. 
These two countries are drifting apart. The Egyptians, as you, 
Madam Chairman, pointed out, are looking for new friends around 
the world. This is something consistent in Egyptian foreign 
policy. We must be prepared that our ability to affect what 
happens in Egypt is rather limited.
    [The prepared statement of Mr. Cook follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you.
    Thank you to all three of you for excellent testimony. We 
will start voting at 2 p.m. So in order to make sure that our 
members have the ability and the time to ask questions, I will 
begin with Congressman Rohrabacher of California.
    Mr. Rohrabacher. Thank you very much. And, again, I would 
like to stress that any country has its imperfections and 
especially countries that are in crisis and where there are 
great threats from the outside and the inside generally have 
major inconsistencies with what I would consider to be part of 
what Americans believe in.
    But let's just note that--let me ask the panel, however, 
when we are trying to figure out where Egypt is, all this 
criticism that we just heard and a lot of criticism we just 
heard, could you tell me another government besides Israel in 
that region that has a better electoral process, that actually 
is more closer to democracy, besides Israel? Anybody on the 
panel got a suggestion?
    Mr. Bjornlund. Tunisia.
    Mr. Cook. Tunisia.
    Mr. Rohrabacher. What?
    Mr. Cook. Tunisia.
    Mr. Bjornlund. Tunisia.
    Mr. Rohrabacher. Besides Egypt.
    Mr. Bjornlund. Tunisia.
    Mr. Cook. Tunisia.
    Mr. Rohrabacher. Tunisia. Okay.
    Mr. Cook. Turkey.
    Mr. Rohrabacher. So Tunisia and--I don't know if Turkey is 
included in that or not. But that is not necessarily--they try 
to be part of Europe and part of that region. So Tunisia and 
Turkey are the models that you think would be good. Does 
Tunisia have a pretty stable government now finally? I mean, 
they went through the new Arab Spring. And I understand they 
were one of the few countries that went through that and came 
through with some stability. Is that right?
    Mr. Schenker. They look better than almost any other 
country in the region.
    Mr. Cook. That does not necessarily suggest that they are 
stable.
    Mr. Rohrabacher. I will accept that. So where would you 
stack in terms of, let's say, Qatar or, let's say, Saudi Arabia 
or how about--because Saudi Arabia just had an election. How 
are their elections and their treatment of minorities and 
things such as that?
    Mr. Cook. Are you asking me, sir?
    Mr. Rohrabacher. Yeah, I am asking the panel.
    Mr. Cook. I would say that when we are thinking about how 
Egypt has approached its own population and its own electoral 
systems, it is--its electoral system, as Mr. Bjornlund pointed 
out, is drawn in a manifestly unfair way that makes it 
difficult for----
    Mr. Rohrabacher. Yeah, I noticed that.
    Mr. Cook [continuing]. Makes it difficult for opponents to 
actually----
    Mr. Rohrabacher. Let me just note, Mr. Cook, could you hold 
on 1 second? What you are describing is our electoral system. 
Their system of winner take all is what we do here. And so what 
you are complaining about is that they haven't taken the 
European system, but they have taken our system, and that is 
really bad.
    Mr. Cook. I am uncomfortable with the idea that the United 
States' political system is analogous to that in Egypt.
    Mr. Rohrabacher. Well, you may be uncomfortable. So you 
don't like it.
    Mr. Cook. I am profoundly uncomfortable with that.
    Mr. Rohrabacher. Okay. You don't like our system.
    Mr. Cook. That is not what I said.
    Mr. Rohrabacher. You are uncomfortable with our system. The 
bottom line is I am not uncomfortable with it. Our Founding 
Fathers weren't. And the bottom line is the other system may be 
better. You may be better to have, say, so many people are 
voting for a Congressman that we will allot a certain number of 
Congressmen from the other party although none of them won in 
the election. But that is what the Europeans do. We don't do 
that. And now you are condemning el-Sisi for that? Wait a 
minute. Okay.
    I have got a couple minutes. I have got to get a couple 
more questions out. We have President el-Sisi, who went to 
their clergy, the leadership of the Muslim clergy, and asked 
for tolerance, for people to try to work together and to cut 
off this sort of anti-Western radicalism and to accept other 
faiths. Is there another leader in the Middle East that you can 
tell me that did that? Muslim leader? Is there any other Muslim 
leader that did anything like that in the Middle East?
    Mr. Schenker. The King of Jordan.
    Mr. Rohrabacher. Jordan?
    Mr. Schenker. King of Jordan.
    Mr. Rohrabacher. Good. Okay. King of Jordan. Got any more? 
No. At the least, General Sisi is the best, except for Tunisia 
and perhaps Turkey and now maybe Jordan. The bottom line is you 
have to compare General Sisi not in terms of when things are 
calm, not in terms of basically democratic governments in 
Europe. You got to say: This is an emergency situation that has 
happened. You have talked about the insurgencies that he is 
facing and what our Government seems to have done, and we won't 
provide them drones. We didn't provide them spare parts for 
their tanks even. We have--they had a tough time getting any 
Apaches. When they finally got the Apache helicopters, they 
didn't have defensive systems on them. And I don't know--have 
they got the F-16s? Have they now been delivered finally?
    Mr. Cook. They have the fourth largest inventory of F-16s.
    Mr. Rohrabacher. Okay. Were they delivered?
    Mr. Cook. Yes.
    Mr. Rohrabacher. Okay. Fine. Because when I was there 2 
years ago, they weren't. And then I went back a year later, and 
they still weren't. Okay. My time is just about up. Let me just 
note: I don't believe Egypt and General Sisi are polarizing 
their society. It is really easy to criticize someone in the 
middle of a crisis situation like that. For someone to suggest 
he is polarizing it at a time when Morsi basically was to most 
Egyptians trying to create an anti-Western caliphate and then 
to blame Sisi for polarizing and not having elections----
    Ms. Ros-Lehtinen. Thank you, Mr. Rohrabacher.
    Mr. Rohrabacher. Yes, thank you very much.
    Ms. Ros-Lehtinen. Mr. Connolly is recognized.
    Mr. Connolly. Thank you, Madam Chairman.
    You know, I spar with my friend from California on this 
panel from time to time. And we are going to spar right now. I 
saw my friend from California put words in the mouth of Dr. 
Cook. And if we are going to lecture people about whether you 
believe in our system, I will point out that it was the 
official position of the United States Government that Morsi 
won a free and fair election, whether we like it or not. And my 
friend finds himself in the position of being an apologist for 
overturning a free and fair election. That is not American. 
That is un-American, even if you don't like the results. And I 
am no apologist for the Muslim Brotherhood or Morsi. But I 
remain troubled as an American and as a Member of this body 
that we find ourselves apologists for a military coup that 
overthrew a free and fairly elected government, one we didn't 
like, one that was trending in the wrong direction. But is this 
government trending in the right direction? You seem to 
suggest, my friend, they are. I beg to differ.
    Mr. Rohrabacher. Would the gentleman yield for a question? 
Seeing that he is----
    Mr. Connolly. Of course.
    Mr. Rohrabacher. Do you believe we are at war with radical 
Islamic terrorists?
    Mr. Connolly. I can't hear you. I am sorry.
    Mr. Rohrabacher. Do you think that we are at war with 
radical Islamic terrorists, just as we allied with Stalin 
during the, against Hitler, et cetera?
    Mr. Connolly. Reclaiming my time.
    Mr. Rohrabacher. Yes, sir.
    Mr. Connolly. There is no question that there is this 
dialectic in the world, and we are part of that. And our 
concern, let's--I think we would agree on, what do we want in 
Egypt? We want a stable, democratic, moderate Islamic 
government. How do you achieve it is the question. And I 
suggest that what the Morsi or what the el-Sisi government is 
doing guarantees that you will not achieve it. It guarantees 
there will be a backlash. It guarantees there will be no 
political opposition worth its salt, driving people into the 
arms of the very radicals or the Islamic Brotherhood you and I 
don't want.
    So, pragmatically, what must we pursue and what must we 
encourage in Egypt to get the result you and I would both agree 
on? And that is where you and I disagree. I think being an 
apologist for this government and its methods is guaranteed to 
lead to a result we are going to really deeply regret. And 
given the testimony that our leverage is more limited than 
ever, God forbid we tie military assistance conditionally. What 
else have we got? Goodwill? Please, please, please? I mean, our 
leverage is pretty limited. And so I think we do to need to 
rethink our policy in Egypt. We agree on a bottom line we want. 
But we don't agree on how to achieve it.
    In fact, I am passionately convinced that if we pursue what 
my friend from California wants us to pursue, we will guarantee 
sooner or later an outcome that will be absolutely antithetical 
to our interests and our desires and, frankly, the interests of 
the Egyptian people. Glossing over problems with this current 
regime on the human rights front, on the media front, freedom 
of press, freedom of assembly, I don't think does anyone a 
favor. And doing it in the name of our fight against radical 
Islam is a smokescreen. We do not promote democratic values in 
the Middle East by actually pulling back on our advocacy for 
those same democratic values because it is inconvenient, or it 
is a moment of emergency, or the elected government we didn't 
like went off on a track that we think, you know, was unhelpful 
or worse.
    I think it is very clear that the human rights abuses that 
have occurred in Egypt are, frankly, far more serious than the 
predecessor regime that was overturned. And I don't mean by 
that to be an apologist for that predecessor regime. I was in 
Egypt. I was very uncomfortable with the direction of the 
Muslim Brotherhood government and told them so and came back 
feeling pessimistic, frankly, about the direction of Egypt. But 
I sure am not hopeful about the current direction of Egypt. And 
I believe it is going to exacerbate our problem in the fight 
against terrorism, whether it be in the Sinai or in the region 
as a whole. We need to stabilize that relationship. And I think 
we need to put on our thinking caps about what elements are 
going to be required to do that.
    With that, I yield back.
    Ms. Ros-Lehtinen. Thank you very much for your cogent 
argument, Mr. Connolly.
    Dr. Yoho--oh, Mr. Clawson, sorry. The bigness of Dr. Yoho 
hid the thinness of the basketball player.
    Mr. Clawson. Where does the trend go with respect to 
Israel?
    Mr. Cook. The relationship with Israel is better than it 
has been over a long period of time, primarily because there is 
a confluence of interests in the Sinai Peninsula. Both security 
services are cooperating and providing critical intelligence to 
each other to ensure that the extremist threat is met as 
effectively as possible, given all the deficits that the 
Egyptians have in combatting it. The troubling aspect, though, 
is that while government-to-government relations are good, the 
overwhelming number of Egyptians still regard Israel in an 
entirely negative light, overwhelming, 90-plus percent.
    Mr. Schenker. Can I add to Dr. Cook? Egypt has asked Israel 
about 20 times to increase the number of troops, fixed-wing 
aircraft, helicopters, armored vehicles, tanks, to revise the 
terms periodically of the Camp David security annex to allow 
Egypt to put in more equipment. Israel has acceded to this. 
There was one incident 2 or 3 years ago where actually an 
Israeli drone, purportedly with Egyptian permission, flew over 
the Sinai an armed drone and killed five terrorists. So the 
cooperation on that level is excellent. But, still, as Dr. Cook 
points out, only, the only channels are at the highest levels 
of the intelligence. There is not a working level in 
intelligence exchange between Israelis and Egyptians, nor on 
the military levels on the working level. This is a government-
to-government at the highest level relationship, not a peace 
between two peoples.
    Mr. Clawson. And so if this intersection of incentives for 
security of the Sinai, if that ever goes away, as we lose, as 
our country loses influence, I think all three of you said that 
in your opening statements, does that put our, will that put 
our ally at more risk?
    Mr. Schenker. I believe that Sisi recognizes that the 
ongoing peace treaty with Israel is in Egypt's interest and is 
going to honor that. I don't have any concern about that 
personally. It is not popular in Egypt at all. But it is not 
going anywhere. Now, if we were to start chipping away at the 
1.3 billion in FMF and the 250 in ESF, I don't think the peace 
treaty would go away, but it would become more problematic.
    Mr. Clawson. Our money is the glue.
    I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Clawson.
    Dr. Yoho.
    Mr. Yoho. Thank you, Madam Chair. And I apologize for 
getting here late.
    Gentlemen, what is the status of ISIS in Egypt? And if you 
covered that already, I apologize. Are they growing? Do they 
have bases? Do they have training centers, recruitment centers, 
in your opinion? Mr. Schenker?
    Mr. Schenker. Well, I will take this first. I believe, you 
know, after ISIS, after Ansar Bayt al-Maqdis, the biggest 
insurgent group in the Sinai, joined with ISIS last year, they 
have increased the number of operations, increasingly lethal 
ones, and appear to be getting a good flow of highly advanced 
weapons for which they have done----
    Mr. Yoho. Where do they come from?
    Mr. Schenker. The Egyptians say many of them are coming 
from Libya.
    Mr. Yoho. From Libya, they came from----
    Mr. Schenker. Well, from after the end of the Qadhafi 
regime.
    Mr. Yoho. Were they stockpiles of ours? Because I have read 
reports that we had stockpiles of weapons that we had dropped 
over there that we don't know where they went.
    Mr. Schenker. Well, I think what we have seen is that we 
believe that ISIS has used or Ansar Bayt al-Maqdis has used SA-
18s--these are Russian-made that were in Qadhafi's stocks--to 
bring down the Egyptian helicopter over the Sinai. But they 
also apparently are now working with Hamas in Gaza. Some of 
these tunnels still exist. And ISIS is getting a cut of the 
weapons moving through the Sinai going into Gaza, working with 
the Bedouin there. So they also, perhaps, are getting weapons 
from Syria because we have seen the Kornet anti-tank weapon, 
which is a top-of-the-line Russian anti-tank weapon that the 
Assad regime had, and they used it apparently to sink an 
Egyptian warship off the Sinai coast in the Mediterranean.
    Mr. Yoho. Let me interrupt you because you were talking 
about they were coming from Hamas. Is Hamas getting those 
through Iran? Do we have any information that they came 
directly from Iran, especially since the Iranian nuclear deal? 
I don't want to call it a deal.
    Mr. Schenker. I don't have any direct information on that. 
I would assume some of this stuff is coming from Libya still. 
It used to come from Sudan. But Sudan, apparently, has changed 
sides. It is more oriented toward Saudi Arabia these days than 
Iran.
    Mr. Yoho. Mr. Bjornlund, in your opinion, are you seeing 
influence and an effect from Libya and Syria spilling in and 
disrupting the Sisi government in Egypt?
    Mr. Bjornlund. Our focus is on democracy and elections. So 
it is not something that we have been able to directly do 
interviews about or talk to people about. So I would defer to 
my colleagues.
    Mr. Yoho. I am glad you brought that up because I want to 
touch on a base that my colleague from Virginia brought up. You 
know that, let's see, he stated that we want a democracy in 
Egypt. What do the people of Egypt want? What does el-Sisi 
want? I mean, democracy as we know it doesn't generally work in 
one of those countries if they don't have the human rights, the 
protection of free speech, the religious freedom, the things 
that we believe in here, and not knowing their rights come from 
a creator, as we believe, versus they come from government. And 
so is it, what do they want over there?
    I mean, we keep trying to say: We are going to help you 
with democracy. And if you don't understand how democracies 
work and the fight from the ground up, you know, through the 
people, I would like to hear your input on what the people are 
looking for, you know, what form of government serves the 
people of Egypt best?
    Mr. Bjornlund. The United States has had a policy for 
decades now to support democracy around the world.
    Mr. Yoho. I know. And I am not a big fan of that. That is a 
neoconservative approach that I don't think our Government 
should do.
    Mr. Bjornlund. And there is the sense that democracy--if 
you define it in a culturally appropriate way--is a universal 
value. It is something that is about having a form of 
government that shows respect for all people and that all 
people have some say in how they are governed. And I think it 
is no different in Egypt, that people want to have their rights 
respected. They want to be able to go on with their lives and 
be involved in the system of government that they have.
    The fundamental problem in Egypt is that there is 
significant polarization. There are very strongly held views 
that are very different from each other. There are large groups 
that believe religion should play a very important role in how 
government is organized, and other people that are members of 
minorities or are more secular or have interests that are 
threatened by that that have a different view of how government 
should work. And the long-term challenge for Egypt is to come 
up with some kind of social compact between these different 
views about what society is about. And we call that democracy. 
That is the word----
    Mr. Yoho. Well, if I go back to the Founders, Ben Franklin 
said: ``A democracy is two wolves and a sheep deciding what to 
have for dinner. And the sheep always loses.''
    The thing that makes our country work is it is a 
constitutional republic that protects the rights of the 
minority.
    Mr. Bjornlund. Absolutely.
    Mr. Yoho. And it came from the ground up.
    Madam Chair, I yield back. Thank you.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Bjornlund. Could I just take this opportunity?
    Ms. Ros-Lehtinen. Yes, sir.
    Mr. Bjornlund. I just want to clarify, because we talked a 
little while ago about the elections. And I want to make sure 
that everybody realizes the election system that they used for 
the Parliament, electing the Parliament in Egypt, is not at all 
similar to the system in the United States. Most of the members 
were elected in multimember districts. A few of them were one 
seat, but they ranged up to four. And voters were instructed to 
cast the number of ballots that there were number of seats. 
Those are mostly not party-affiliated people; they are most 
calling themselves independents.
    The winner-take-all aspect of the election is the list part 
of the system, which is 120 of the 596 votes. And that was 
large--these are large districts with, you know, tens or dozens 
of members in them, where it you got 51 percent of the vote, 
you got 100 percent of the seats. That is not the U.S. system. 
And the point I was making is it is not the European system 
either.
    Ms. Ros-Lehtinen. Thank you so much, Dr. Yoho.
    And my crack staff or my staff on crack, I don't know which 
one it is, had some wonderful questions for me to ask our 
panelists. But, lamentably--it is not a bad problem to have--we 
have a series of votes on the floor. So we will have to adjourn 
our subcommittee.
    But I want to thank you so much for your excellent 
testimony.
    And Mr. Connolly always wants to have the last word.
    Mr. Connolly. No, I just wanted to thank you. I wanted to 
thank you for this hearing. I think this was a really 
thoughtful conversation. I hope we can expand on it because 
this is a critical relationship. And we have to try to get it 
right. So thank you all for participating. Thank you.
    Ms. Ros-Lehtinen. So much depends on it.
    Mr. Connolly. So much depends on it.
    Ms. Ros-Lehtinen. Thank you.
    And condolences again to Mr. Deutchand his entire staff as 
well.
    With that, this subcommittee is adjourned. Thank you, 
ladies and gentlemen.
    [Whereupon, at 2:15 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
